WAIVER

Supreme Court of the United States

No. 19-562
Brian Burke v. New York City Transit Authority
(Petitioner) (Respondent)

1 DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.

Please check the appropriate boxes:
c Please enter my appéarance as Counsel of Récord for all respondents. °

% There are multiple respondents, and I do not represent all respondents, Please enter my
appearance as Counsel of Record for the following respondent(s):

Kathianne Boniello and NYP Holdings, Inc.

 

% Lama member of the Bar of the Supreme Court of the United States.

CQ Iam not presently a member of the Bar of this Court. Should a response be requested,
the response will be filed by a Bar member.

Signature LA 2 LL

November 11, 2019
Robert D. Balin
& Mr. OMs. O Mrs. O Miss
Davis Wright Tremaine LLP

 

Date:

 

 

(Type or print) Name.

Firm.

 

Address __ 1251 Avenue of the Americas

7 New York, New York 10020
City & State Zip

Phone 212-489-8230

 

SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

Ce: Brian Burke
" 145 East 23rd Street #4R
New York, NY 10010

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.
